DOCKET NO. _______
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
--------------------------------GROVER B. REED,
Petitioner,
vs.
STATE OF FLORIDA,
Respondent.
----------------------------------------------------------------------PETITION FOR A WRIT OF CERTIORARI
TO THE FLORIDA SUPREME COURT
---------------------------

MARTIN J. McCLAIN
Florida Bar No. 0754773
Law Office of Martin J. McClain
141 N.E. 30th Street
Wilton Manors, FL 33334
Telephone: (305) 984-8344
FAX: (954) 564-5412
martymcclain@comcast.net
COUNSEL FOR PETITIONER

QUESTIONS PRESENTED--CAPITAL CASE
In Hurst v. Florida, 136 S. Ct. 616 (2016), this Court held
that Florida’s capital sentencing scheme was unconstitutional. On
remand, the Florida Supreme Court in Hurst v. State, 202 So. 3d
40 (Fla. 2016), read the plain language of Hurst v. Florida and
found that because the statutorily defined facts were necessary
to increase the range of punishment to include a death sentence,
proof of those facts was necessary “to essentially convict a
defendant of capital murder.” Hurst v. State, 202 So. 3d at 53.
Thus, the statutorily identified facts were essentially elements
of a higher degree of murder. Hurst v. State, 202 So. 3d at 54.
Some three years later, the Florida Supreme Court receded from
the construction of the capital sentencing statute set out in
Hurst v. State. Poole v. State, 297 So. 3d 487 (Fla. 2020).
1.

Whether the Florida Supreme Court’s statutory

construction in Hurst v. State constitutes substantive law, and
if so, whether under the Due Process Clause of the Fourteenth
Amendment this substantive law must be regarded as in effect at
the time of Mr. Reed’s alleged offense?
2.

Whether the Due Process Clause permits State v. Poole

to retroactively change the construction of the Florida’s capital
sentencing statute in Hurst v. State to Mr. Reed’s detriment?
3.

Whether the erratic manner in which the Hurst v. State

has been applied provides a principled way to distinction between
those who receive a death sentence and those who do not in accord
with the Eighth Amendment?
i

NOTICE OF RELATED CASES
Per Supreme Court Rule 14.1(b)(iii), the following cases
relate to this petition:
Underlying Trial:
Circuit Court of Duval County, Florida
State of Florida v. Grover B. Reed, Case No. 86-6123-CF
Judgement Entered January 9, 1987
Appellate Proceedings:
Florida Supreme Court (Case No. 60-70,069)
Reed v. State, 560 So. 2d 203 (Fla. 1990)
Conviction and Sentence Affirmed: March 1, 1990
Petition for Writ of Certiorari:
United States Supreme Court
Reed v. Florida, 506 U.S. 802 (1990)
Petition Denied: October 1, 1990
Initial Postconviction Proceedings:
Circuit Court of Duval County, Florida
State of Florida v. Grover Reed, Case No. 86-6123-CF
Order Denying Motion Entered August 26, 1992
Appellate Proceedings:
Florida Supreme Court (Case No. SC60-80,518)
Reed v. State, 640 So. 2d 1094 (Fla. 1994)
Remanded for Evidentiary Hearing: June 2, 1994
Proceedings on Remand:
Circuit Court of Duval County, Florida
State of Florida v. Grover Reed, Case No. 86-6123-CF
Order Denying Motion Entered August 28, 2002
Appellate Proceedings:
Florida Supreme Court (Case No. SC02-2191)
Reed v. State, 875 So. 2d 415 (Fla. 2004)
Affirmed: April 15, 2004
Petition for Writ of Certiorari:
United States Supreme Court
Reed v. Florida, 543 U.S. 980 (2004)
Petition Denied: November 8, 2004
Federal Appellate Proceedings:
Eleventh Circuit Court of Appeals (Case No. 09-10059)
Reed v. Sec’y, Fla. Dept. of Corrs., 593 F.3d 1217 (11th
Cir. 2010)
Affirmed: January 11, 2010
ii

Successive Postconviction Proceedings:
Circuit Court of Duval County, Florida
State of Florida v. Grover Reed, Case No. 86-6123-CF
Order Denying Motion Entered September 9, 2011
Appellate Proceedings:
Florida Supreme Court (Case No. SC11-2149)
Reed v. State, 116 So. 3d 260 (Fla. 2013)
Affirmed: February 28, 2013
Second Successive Postconviction Proceedings:
Circuit Court of Duval County, Florida
State of Florida v. Grover Reed, Case No. 86-6123-CF
Order Denying Motion Entered March 1, 2017
Appellate Proceedings:
Florida Supreme Court (Case No. SC17-896)
Reed v. State, 259 So. 3d 718 (Fla. 2018)
Remanded: November 15, 2018
Proceedings on Remand:
Circuit Court of Duval County, Florida
State of Florida v. Grover Reed, Case No. 86-6123-CF
Order Denying Motion Entered March 27, 2019
Appellate Proceedings:
Florida Supreme Court (Case No. SC19-714)
Reed v. State, 297 So. 3d 1291 (Fla. 2020)
Affirmed: March 19, 2020

iii

TABLE OF CONTENTS
PAGE
QUESTIONS PRESENTED--CAPITAL CASE . . . . . . . . . . . . . . . i
NOTICE OF RELATED CASES . . . . . . . . . . . . . . . . . . .

ii

TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . .

iv

TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . . . v
CITATION TO OPINION BELOW . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDICTION . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED. . . . . . . . 2
PROCEDURAL HISTORY. . . . . . . . . . . . . . . . . . . . . . . 2
FACTS RELEVANT TO QUESTIONS PRESENTED . . . . . . . . . . . .

11

REASONS FOR GRANTING THE WRIT . . . . . . . . . . . . . . . .

13

I.

CONFUSION ABOUNDS REGARDING WHAT IS THE BOUNDARY
BETWEEN SUBSTANTIVE LAW AND RULES OF PROCEDURE WHEN A
JUDICIAL DECISION CONSTRUES A STATUTE AND ADDRESSES HOW
A CONSTITUTIONAL RULE INTERSECTS. BECAUSE FOR
RETROACTIVITY PURPOSES IT VERY MUCH MATTERS WHETHER A
JUDICIAL DECISION IS SUBSTANTIVE OR PROCEDURAL, THIS
COURT SHOULD GRANT THE WRIT IN ORDER ADDRESS WHETHER
THE FLORIDA SUPREME COURT RULING IN HURST V. STATE WAS
ONE OF SUBSTANTIVE LAW BECAUSE IT CONSTRUED A STATUTE
OR ONE REGARDING A RULE OF PROCEDURE BECAUSE IT APPLIED
A CONSTITUTIONAL RULING BY THIS COURT . . . . . . . 13

CONCLUSION. . . . . . . . . . . . . . . . . . . . . . . . . .

23

CERTIFICATE OF SERVICE. . . . . . . . . . . . . . . . . . . .

24

iv

TABLE OF AUTHORITIES
PAGE
Asay v. State,
210 So. 3d 1 (Fla. 2016) . . . . . . . . . . . . . . . . . 9
Bottoson v. Moore,
833 So. 2d 693 (Fla. 2002) . . . . . . . . . . . . . . . . 7
Bouie v. City of Columbia,
378 U.S. 347 (1964). . . . . . . . . . . . . . . . . . 20-21
Brady v. Maryland,
373 U.S. 83 (1963) . . . . . . . . . . . . . . . . . . . . 6
Brinkerhoff-Faris Trust & Sav. Co. v. Hill,
281 U.S. 673 (1930). . . . . . . . . . . . . . . . . . .

21

Caldwell v. Mississippi,
472 U.S. 320 (1985). . . . . . . . . . . . . . . . . . . . 5
Card v. Jones,
219 So. 3d 47 (Fla. 2017). . . . . . . . . . . . . . . .

19

Dixon v. State.,
283 So. 2d 1 (Fla. 1973) . . . . . . . . . . . . . . . .

18

Fiore v. White,
531 U.S. 225 (2001). . . . . . . . . . . . . . . . . . .

19

Horsley v. State,
160 So. 3d 393 (Fla. 2015) . . . . . . . . . . . . . . . . 2
Hurst v. Florida,
136 S.Ct. 616 (2016) . . . . . . . . . . . . . . . .
Hurst v. State,
202 So. 3d 40 (Fla. 2016). . . . . . . . . . . . .

4, 7-8
8, 13-14

Johnson v. State,
205 So. 3d 1285 (Fla. 2016). . . . . . . . . . . . . . . . 8
Johnson v. State,
44 So. 3d 51 (Fla. 2010) . . . . . . . . . . . . . . . . . 9
King v. Moore,
831 So. 2d 143 (Fla. 2002) . . . . . . . . . . . . . . . . 7
Kirkland v. State,
684 So. 2d 732 (Fla. 1986) . . . . . . . . . . . . . . . . 7
Lowenfield v. Phelps,
v

484 U.S. 231 (1988). . . . . . . . . . . . . . . . . . .
McKinney v. Arizona,
140 S.Ct. 702 (2020) . . . . . . . . . . . . . . . .

16

22, 23

Mosley v. State,
209 So. 3d 1248 (Fla. 2016). . . . . . . . . . . . . . . . 9
Parker v. Dugger,
498 U.S. 308 (1991). . . . . . . . . . . . . . . . . . 4, 22
Porter v. State,
564 So. 2d 1060 (Fla. 1990). . . . . . . . . . . . . . .

17

Reed v. Florida,
498 U.S. 882 (1990). . . . . . . . . . . . . . . . . . . . 6
Reed v. Sec’y, Dep’t of Corrs.,
593 F.3d 1217 (11th Cir. 2010)

. . . . . . . . . . . . . . 7

Reed v. State,
14 Fla. L. Weekly S298 (Fla. June 15, 1989). . . . . . . . 5
Reed v. State,
560 So. 2d 203 (Fla. 1990) . . . . . . . . . . . . . . 5, 11
Reed v. State,
640 So. 2d 1094 (Fla. 1994). . . . . . . . . . . . . . . . 6
Reed v. State,
875 So. 2d 415 (Fla. 2004) . . . . . . . . . . . . . . . . 7
Reed v. State,
116 So. 3d 260 (Fla. 2013) . . . . . . . . . . . . . . . . 7
Reed v. State,
259 So. 3d 718 (Fla. 2018) . . . . . . . . . . . . . . .

10

Reed v. State,
297 So. 3d 1291 (Fla. 2020)) . . . . . . . . . . . . . 1, 11
Ring v. Arizona,
536 U.S. 584 (2002). . . . . . . . . . . . . . . . . . . 6-7
Rogers v. Tennessee,
532 U.S. 451 (2001). . . . . . . . . . . . . . . . . . .
State v. Poole,
297 So. 3d 487 (Fla. 2020) . . . . . . . . . . . . .

21

10, 20

Stringer v. Black,
503 U.S. 222 (1992). . . . . . . . . . . . . . . . . . 15-16
vi

White v. State,
415 So. 2d 719 (Fla. 1982) . . . . . . . . . . . . . . .

22

White v. State,
729 So. 2d 909 (Fla. 1999) . . . . . . . . . . . . . . .

22

White v. State,
817 So. 2d 799 (Fla. 2002) . . . . . . . . . . . . . . .

22

Zakrzewski v. Jones,
221 So. 3d 1159 (Fla. 2017). . . . . . . . . . . . . . .

19

Zant v. Stephens,
462 U.S. 862 (1983). . . . . . . . . . . . . . . . . . .

17

vii

IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
--------------------------------GROVER REED,
Petitioner,
vs.
STATE OF FLORIDA,
Respondent.
--------------------------------Grover Reed respectfully petitions this Court for a writ of
certiorari to review the decision of the Florida Supreme Court.
CITATION TO OPINION BELOW
The Florida Supreme Court’s decision appears as Reed v.
State, 297 So. 3d 1291 (Fla. 2020), and is Attachment A to this
petition. The order denying rehearing is Attachment B to this
petition.
STATEMENT OF JURISDICTION
Petitioner invokes this Court's jurisdiction to grant the
Petition for a Writ of Certiorari to the Florida Supreme Court on
the basis of 28 U.S.C. Section 1257. The Florida Supreme Court
entered its opinion on March 19, 2020. Rehearing was denied on
July 2, 2020.

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Sixth Amendment to the Constitution of the United States
provides:
In all criminal prosecutions, the accused shall enjoy
the right to a speedy and public trial, by an impartial
jury of the state and district wherein the crime shall
have been committed ....
The Eighth Amendment to the Constitution of the United
States provides in relevant part:
Excessive bail shall not be required, nor excessive
fines imposed, nor cruel or unusual punishments
inflicted.
The Fourteenth Amendment to the Constitution of the United
States provides, in relevant part:
No State shall . . . deprive any person of life,
liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the
equal protection of the laws
PROCEDURAL HISTORY
The homicide occurred on February 27, 1986. First adopted in
1885, Art. X, section 9 of the Florida Constitution required “the
statute in effect at the time of the crime to govern” a criminal
prosecution for the commission of the crime and “the sentence an
offender [was to] receive[] for the commission of that crime.”
Horsley v. State, 160 So. 3d 393, 406 (Fla. 2015).
Grover Reed was arrested on April 3, 1986. He was indicted
on July 10, 1986. The indictment charged him with first degree
murder, sexual battery, and armed robbery. The lead prosecutor
made a plea deal with a jailhouse informant represented by the
public defender’s office. On August 6, 1986, the prosecutor then
2

had the public defender’s office removed as Mr. Reed’s counsel
over objections by Mr. Reed and by the public defender’s office.1
New counsel was then appointed to represent Mr. Reed. The capital
trial commenced on November 17, 1986, 104 days after new counsel
was appointed to represent Mr. Reed. The jailhouse informant that
the State had relied on to have the public defender’s office
precluded from representing Mr. Reed did not testify at the
trial. Guilty verdicts were returned on November 20, 1986.
The prosecutor and the appointed defense counsel stipulated
that no testimony would be presented at the penalty phase
conducted before the jury. Mr. Reed’s jury was instructed that it
was to return an advisory sentencing recommendation by a majority
vote. The jury was told that it was up to the judge to decide
what sentence would be imposed. After hearing closing arguments
and being instructed that it was making an advisory
recommendation, it took the jury 20 minutes to return an 11-1
death recommendation.
Subsequently, a sentencing hearing was conducted before the
judge on December 18, 1986. At that time, Mr. Reed’s counsel
announced that due to “finance and logistics” he was unable to
call any witnesses. After hearing argument, the judge took the

1

Before being removed, the assigned public defender had filed
on Mr. Reed’s behalf a challenge to Florida’s death penalty law.
Counsel argued that the statute was unconstitutional “because it
permits the trial judge to consider aggravating circumstances in
imposing the death sentence that the advisory jury may not have
considered, or that the jury may have decided did not exist” (R.
52). The trial court overruled the objection (R. 235).
3

matter under advisement.
Under Florida law before a death sentence could be imposed,
the judge had to enter written findings of fact. Within these
written findings the judge was to identify the statutorily
identified aggravating circumstances he found proven beyond a
reasonable doubt. Before he could impose a death sentence, the
judge had to find “the facts ... [t]hat sufficient aggravating
circumstances exist” and “[t]hat there are sufficient mitigating
circumstances to outweigh the aggravating circumstances.”2 Hurst
v. Florida, 136 S. Ct. 616, 622 (2016).
On January 9, 1987, the judge in his written findings found
that six aggravating circumstances had been proven by the State
beyond a reasonable doubt,3 that the six aggravating
circumstances were sufficient to justify a death sentence, and
that no mitigating circumstances had been shown which outweighed
the six aggravating circumstances. On the basis of these findings
of fact, the judge imposed a death sentence.
2

While Arizona’s capital sentencing statute only required a
judge to find the existence of one aggravating circumstance
before she could impose a death sentence, Florida’s capital
sentencing statute required the judge to not only find in writing
that aggravating circumstances had been established, but that
they were “sufficient” and that they were not outweighed by
mitigating circumstances. See Parker v. Dugger, 498 U.S. 308, 313
(1991).
3

The six aggravating circumstances were: 1) Mr. Reed was
previously convicted of a violent felony; 2) the homicide was
committed in the course of a felony; 3) the homicide was
committed for the purpose of avoiding arrest; 4) the capital
felony was committed for pecuniary gain; 5) the homicide was
especially heinous, atrocious or cruel; 6) the homicide was
committed in cold, calculated, and premeditated manner without
any pretense of moral or legal justification.
4

On direct appeal, the Florida Supreme Court initially
overturned Mr. Reed’s conviction and granted him a new trial.
Reed v. State, 14 Fla. L. Weekly S298 (Fla. June 15, 1989).
However after the State moved for a rehearing, the Florida
Supreme Court granted the motion, vacated its earlier opinion,
and issued a new one affirming Mr. Reed’s conviction and sentence
of death. In the opinion affirming, the Florida Supreme Court
struck two of the six aggravating circumstances that the
sentencing judge had found established when he imposed the death
sentence. Reed v. State, 560 So. 2d 203 (Fla. 1990).4
Mr. Reed had also argued that the judge and prosecutor’s
comments, as well as jury instructions, misled the jury regarding
the importance of its recommendation, in violation of Caldwell v.
Mississippi, 472 U.S. 320 (1985), because although the jury did
not impose sentence, “[a] recommendation of life affords the
capital defendant greater protections than one of death. . . .
Consequently, the jury’s decision is critical and any diminution
of its importance violates Caldwell.” (Reed v. State, Fla. Sup.
Ct. Case No. 70,069, Initial Brief of Appellant at 30). The
Florida Supreme Court addressed this argument stating: “We have
ruled that Caldwell claims based on these types of comments offer
no relief in that both the prosecutor and judge were correctly
stating the law.” Reed, 560 So.2d at 206. The court also found
4

The two aggravating circumstances struck by the Florida
Supreme Court as improperly found were: 1) previously convicted
of a violent felony; and 2) the homicide was committed in cold,
calculated, and premeditated manner without any pretense of moral
or legal justification.
5

the matter unpreserved.
Mr. Reed’s death sentence became final on October 1, 1990,
when this Court denied Mr. Reed’s petition for a writ of
certiorari. Reed v. Florida, 498 U.S. 882 (1990).
On February 28, 1992, Reed filed a motion to vacate his
conviction and death sentence. The trial court summarily denied
all relief (PCR 309). On appeal, the Florida Supreme Court
reversed and remanded for an evidentiary hearing on Mr. Reed’s
ineffective assistance claim. Reed v. State, 640 So.2d 1094 (Fla,
1994).
At the evidentiary hearing, Reed presented evidence
challenging trial counsel’s failures to obtain the assistance of
hair, serology and fingerprint experts. Reed also presented
evidence that the State violated Brady v. Maryland, 373 U.S. 83
(1963), in failing to disclose that a police officer had seen Mr.
Reed before the time of the murder and observed that Mr. Reed was
not wearing the hat at issue and in failing to disclose that the
State’s fingerprint expert had recently left FDLE because he
admitted consuming cocaine that was in evidence at the FDLE lab.
Mr. Reed also presented mitigation evidence from two family
members: Mr. Reed’s high school coach and a psychologist. The
trial court denied relief.
Mr. Reed appealed. He also filed a petition for a writ of
habeas corpus in the Florida Supreme Court on March 31, 2003. In
his petition, Mr. Reed argued that his death sentence was
unconstitutional under Ring v. Arizona, 536 U.S. 584
6

(2002). The habeas proceeding and the appeal were heard together.
The Florida Supreme Court affirmed the denial of collateral
relief and denied the habeas petition. Reed v. State, 875 So.2d
415 (Fla. 2004). As to the Ring claim, the Florida Supreme Court
wrote: “This Court has consistently rejected Ring claims in
postconviction cases.” For this, the court cited Bottoson v.
Moore, 833 So. 2d 693 (Fla. 2002), and King v. Moore, 831 So. 2d
143 (Fla. 2002). Reed, 875 So. 2d at 438-39.
On July 5, 2005, Reed filed a federal habeas petition after
undersigned counsel was appointed to represent him in federal
court. The federal district court denied the petition, and the
Eleventh Circuit affirmed on appeal. Reed v. Sec’y, Dep’t of
Corrs., 593 F.3d 1217 (11th Cir. 2010).
On May 9, 2011, Mr. Reed filed a motion for discovery in
light of newly discovered evidence appearing in affidavits from
two witnesses regarding inculpatory statements made by Dwayne
Kirkland, a black male. The motion requested that Mr. Reed be
provided the photograph of an unidentified print from the crime
scene to compare with Kirkland’s prints which would have been
placed upon the judgment and sentence when he was sent to death
row for first degree murder. Kirkland v. State, 684 So.2d 732
(Fla. 1996). The circuit court denied the motion for collateral
relief and the discovery motion.
On appeal the Florida Supreme Court affirmed. Reed v. State,
116 So. 3d 260 (Fla. 2013).
On January 12, 2016, this Court issued Hurst v. Florida, 136
7

S. Ct. 616 (2016), vacated the death sentence in that case, and
remanded the matter to the Florida Supreme Court for further
consideration.
On October 14, 2016, the Florida Supreme Court issued Hurst
v. State, 202 So. 3d 40 (Fla. 2016). In its opinion, the Florida
Supreme Court construed Florida’s capital sentencing statute.
The Supreme Court in Hurst v. Florida made clear that
the jury must find “each fact necessary to impose a
sentence of death,” 136 S.Ct. at 619, “any fact that
expose[s] the defendant to a greater punishment,” id.
at 621, “the facts necessary to sentence a defendant to
death,” id., “the facts behind” the punishment, id.,
and “the critical findings necessary to impose the
death penalty,” id. at 622 (emphasis added). Florida
law has long required findings beyond the existence of
a single aggravator before the sentence of death may be
recommended or imposed. See § 921.14l(3), Fla. Stat.
(2012).
202 So. 3d at 53 n.7. “[B]ecause these findings occupy a position
on par with elements of a greater offense,” id. at 57, the
Florida Supreme Court concluded that the Florida Constitution
and longstanding Florida law required these to be made by the
jury unanimously. Id. at 59. It remanded Mr. Hurst’s case so that
a jury could whether the State had proven the necessary facts to
authorize a judge to impose a death sentence.
On December 1, 2016, the Florida Supreme Court issued
Johnson v. State, 205 So. 3d 1285 (Fla. 2016). In that case, the
three homicides at issue were committed on January 9, 1981. Mr.
Johnson’s conviction of first degree murder became final on May
17, 1993, after the Florida Supreme Court affirmed his conviction
and sentence of death, and after this Court denied certiorari

8

review. Mr. Johnson’s death sentence was subsequently vacated and
a new penalty phase ordered in 2010 by the Florida Supreme Court.
Johnson v. State, 44 So. 3d 51 (Fla. 2010). However, Mr.
Johnson’s first degree murder convictions remained intact. On
remand, death sentences were again imposed. In Mr. Johnson’s
direct appeal, the Florida Supreme Court found that Hurst v.
State governed, vacated his death sentences, and remanded so that
a unanimous jury could determine whether the State had proven the
statutorily identified facts beyond a reasonable doubt and thus
authorize a judge to impose death sentences.
On December 22, 2016, a divided Florida Supreme Court
decided that Hurst v. State would be applied in cases in which
the death sentence was not final before June 24, 2002. See Mosley
v. State, 209 So. 3d 1248 (Fla. 2016); Asay v. State, 210 So. 3d
1 (Fla. 2016).
On the basis of Hurst v. State, Mr. Reed filed a successive
motion to vacate his death sentence on January 12, 2017. The
motion included his argument that his death sentence could not
stand because a jury had not unanimously found the statutorily
identified facts necessary to convict him of capital murder and
authorize the imposition of a death sentence. Mr. Reed learned
that after his motion was filed a new judge was assigned to hear
it when he received her order denying the motion. Mr. Reed filed
a motion to disqualify the newly assigned judge and a motion for
rehearing. Both were denied, and Mr. Reed appealed.
The Florida Supreme Court reversed and remanded finding that
9

it was error to deny the motion to disqualify the newly assigned
judge. Reed v. State, 259 So. 3d 718 (Fla. 2018).
On remand, a new judge was assigned to hear Mr. Reeed’s
motion. An order denying the motion was entered by the trial
court on March 27, 2019. Mr. Reed appealed.
Before deciding Mr. Reed’s appeal, the Florida Supreme Court
issued its opinion in State v. Poole, 297 So. 3d 487 (Fla. 2020),
and receded from the statutory construction set out in Hurst v.
State as to what facts had to be proven by the State to authorize
the imposition of a death sentence. In Poole, the Florida Supreme
Court held that all that was necessary to authorize the
imposition of a death sentence on a defendant convicted of first
degree murder was “one or more statutory aggravating
circumstances.” Id. at 503.
On March 19, 2020, the Florida Supreme Court denied Mr.
Reed’s appeal. The court specifically rejected the merits of his
constitutional claims arising from the Hurst v. State
construction of Florida’s capital sentencing statute. The merits
ruling was based upon State v. Poole:
Since then, however, we decided Poole, 292 So.3d 694 ,
which is dispositive here. Pursuant to Poole, there is
no Hurst v. Florida or Hurst v. State error in Reed's
case because a unanimous jury finding establishes the
existence of at least one statutory aggravating
circumstance beyond a reasonable doubt. See Poole, 45
Fla. L. Weekly at S48, 292 So.3d at –––– (“reced[ing]
from Hurst v. State except to the extent it requires a
jury unanimously to find the existence of a statutory
aggravating circumstance beyond a reasonable doubt” as
required by Hurst v. Florida); see also McKinney v.
Arizona, ––– U.S. ––––, 140 S. Ct. 702, 707, 206
L.Ed.2d 69 (2020) (holding that, under Hurst v.
10

Florida, “a jury must find the aggravating circumstance
that makes the defendant death eligible,” but that a
jury “is not constitutionally required to weigh the
aggravating and mitigating circumstances or to make the
ultimate sentencing decision within the relevant
sentencing range”). In Reed's case, two of the four
statutory aggravating circumstances found by the trial
court—the capital felony was committed during the
commission of a sexual battery and for pecuniary
gain—are established because Reed's jury found him
guilty of the contemporaneous crimes of sexual battery
and robbery. See Reed, 560 So. 2d at 204, 205 n.1.
Accordingly, we affirm the trial court's order denying
relief.
Reed v. State, 297 So. 3d at 1291-92 (emphasis added).
Mr. Reed filed a motion for rehearing. The Florida Supreme
Court denied the rehearing motion on July 2, 2020.
This petition follows and seeks certiorari review of the
Florida Supreme Court’s denial of Mr. Reed’s constitutional
claims which rested on the construction of Florida’s capital
sentencing statute set out in Hurst v. State.
FACTS RELEVANT TO QUESTIONS PRESENTED
Mr. Reed was indicted on a first degree murder count, a
sexual battery count, and an armed robbery count. Reed v. State,
560 So. 2d 203 (Fla. 1990). The indictment, which was read to the
jury panel by the trial judge, did not identify any aggravating
circumstances or statutorily required facts as necessary to
render a defendant convicted of first degree murder eligible for
a sentence of death under Florida Statute 921.141. (R. 20).
At the conclusion of a guilt phase, the jury found Mr. Reed
guilty of first-degree murder, sexual battery, and armed robbery.
(R. 276-78).
11

From the outset and throughout the proceedings, the jurors
had been told individually that their responsibility was merely
to make a recommendation and advise the Court as to the
appropriate sentence of life or death (T. 111-12, 184-85, 27677). In fact, each prospective juror and all of the ultimate
jurors repeatedly heard that they were responsible for providing
a recommendation, only, and that the judge was the sentencer.
At the penalty phase, the jury was also advised that it was
its duty to render to the Court an advisory sentence and that the
final decision was with the judge (T. 858-59). Thereafter, an
advisory verdict was returned stating whereby the jury
“recommended” to the court by a vote of 11-1 that Mr. Reed be
sentenced to death.
The jury did not return a verdict and make the statutorily
required findings of fact. See § 921.141(3) (2012) (“(a) That
sufficient aggravating circumstances exist as enumerated in
subsection (5), and (b) That there are insufficient mitigating
circumstances to outweigh the aggravating circumstances.”). Those
findings were made by the judge in his written findings which he
issued before imposing a death sentence.

12

REASONS FOR GRANTING THE WRIT
I.

CONFUSION ABOUNDS REGARDING WHAT IS THE BOUNDARY BETWEEN
SUBSTANTIVE LAW AND RULES OF PROCEDURE WHEN A JUDICIAL
DECISION CONSTRUES A STATUTE AND ADDRESSES HOW A
CONSTITUTIONAL RULE INTERSECTS. BECAUSE FOR RETROACTIVITY
PURPOSES IT VERY MUCH MATTERS WHETHER A JUDICIAL DECISION IS
SUBSTANTIVE OR PROCEDURAL, THIS COURT SHOULD GRANT THE WRIT
IN ORDER ADDRESS WHETHER THE FLORIDA SUPREME COURT RULING IN
HURST V. STATE WAS ONE OF SUBSTANTIVE LAW BECAUSE IT
CONSTRUED A STATUTE OR ONE REGARDING A RULE OF PROCEDURE
BECAUSE IT APPLIED A CONSTITUTIONAL RULING BY THIS COURT.
In Hurst v. State, the Florida Supreme Court construed

Florida Statute § 921.141, and held:
under Florida law, “The death penalty may be imposed
only where sufficient aggravating circumstances exist
that outweigh mitigating circumstances.” Id. at 313,
111 S.Ct. 731 (emphasis added) (quoting § 921.141(3),
Fla. Stat. (1985)). Thus, before a sentence of death
may be considered by the trial court in Florida, the
jury must find the existence of the aggravating factors
proven beyond a reasonable doubt, that the aggravating
factors are sufficient to impose death, and that the
aggravating factors outweigh the mitigating
circumstances.
Hurst v. State, 202 So. 3d 40, 53 (Fla. 2016). Because the
sufficiency of the aggravating circumstances was a statutorily
identified fact that had to be found before a death sentence
could be imposed, the Florida Supreme Court concluded that the
sufficiency of the aggravating circumstances was an element that
had to be found unanimously by the jury:
We also conclude that, just as elements of a crime must
be found unanimously by a Florida jury, all these
findings necessary for the jury to essentially convict
a defendant of capital murder — thus allowing
imposition of the death penalty — are also elements
that must be found unanimously by the jury. Thus, we
hold that in addition to unanimously finding the
existence of any aggravating factor, the jury must also
unanimously find that the aggravating factors are
sufficient for the imposition of death and unanimously
13

find that the aggravating factors outweigh the
mitigation before a sentence of death may be considered
by the judge.
Id. at 53-54 (emphasis added).
In addition to the express language in the majority opinion
holding that the sufficiency of the aggravating circumstances was
an element of capital murder, Justice Canady’s dissenting opinion
stated his disagreement with the majority’s holding that the
sufficiency of the aggravating circumstances was an element:
“Elements” are “facts” that the State must prove to the
jury. Ring made clear and Hurst v. Florida reaffirmed
that in death cases, the necessary elements include the
existence of an aggravating circumstance. But the other
determinations made in a death penalty proceeding —
whether the aggravation is sufficient to justify a
death sentence; whether mitigating circumstances (which
are established by the defendant) outweigh the
aggravation; whether a death sentence is the
appropriate penalty—are not elements to be proven by
the State.
Hurst v. State, 202 So. 3d at 81-82 (Canady, J. dissenting).
The disagreement between the majority and the dissent in
Hurst v. State was over whether the finding that the aggravating
circumstances were sufficient was an element of the greater
offense of capital murder. This disagreement at its core was a
matter of statutory construction. The statute at issue was §
921.14115, which, at the time of Mr. Reed’s sentencing, provided:
(3) FINDINGS IN SUPPORT OF SENTENCE OF DEATH –
Notwithstanding the recommendation of a majority of the
jury, the court, after weighing the aggravating and
mitigating circumstances, shall enter a sentence of
5

For simplicity, unless otherwise indicated, Mr. Reed refers in
the present tense to Florida’s capital sentencing law as it
existed in 1987, when he was sentenced to death.
14

life imprisonment or death, but if the court imposes a
sentence of death, it shall set for in writing its
findings upon which the sentence is based as to the
facts:
(a) That sufficient aggravating circumstances
exist as enumerated in subsection (5), and
(b) That there are insufficient mitigating
circumstances to outweigh the aggravating
circumstances.
In each case in which the court imposes the death
sentence, the determination of the court shall be
supported by specific written findings of fact based
upon the circumstances in subsections (5) and (6) and
upon the records of the trial and the sentencing
proceedings. If the court does not make the findings
requiring the death sentence, the court shall impose
sentence of life imprisonment in accordance with S.
775.082.
Fla. Stat. § 921.141(3)(emphasis added).
In Stringer v. Black, 503 U.S. 222 (1992), this Court was
called upon to contrast how capital sentencing schemes used
aggravating circumstances. This Court explained:
In Lowenfield [v. Phelps, 484 U.S. 231 (1988)], the
petitioner argued that his death sentence was invalid
because the aggravating factor found by the jury
duplicated the elements it already had found in
determining there was a first-degree homicide. We
rejected the argument that, as a consequence, the
Louisiana sentencing procedures had failed to narrow
the class of death-eligible defendants in a predictable
manner. We observed that “[t]he use of ‘aggravating
circumstances’ is not an end in itself, but a means of
genuinely narrowing the class of death-eligible persons
and thereby channeling the jury’s discretion. We see no
reason why this narrowing function may not be performed
by jury findings at either the sentencing phase of the
trial or the guilt phase.” [Citation]. We went on to
compare the Louisiana scheme with the Texas scheme,
under which the required narrowing occurs at the guilt
phase. [Citation]. We also contrasted the Louisiana
scheme with the Georgia and Florida schemes.
[Citation].
The State’s premise that the Mississippi sentencing
15

scheme is comparable to Louisiana’s is in error. The
Mississippi Supreme Court itself has stated in no
uncertain terms that, with the exception of one
distinction not relevant here, its sentencing system
operates in the same manner as the Florida system; and
Florida, of course, is subject to the rule forbidding
automatic affirmance by the state appellate court in an
invalid aggravating factor is relied upon. In
considering a Godfrey claim based on the same factor at
issue here, the Mississippi Supreme Court considered
decisions of the Florida Supreme Court to be the most
appropriate source of guidance.
Stringer, 503 U.S. at 233-34 (emphasis added).
In fact in Lowenfield v. Phelps, 484 U.S. 231, 242 (1988),
the Louisiana statute defined first degree murder as fitting
within one of five circumstances in contrast to Florida’s
provision that first degree murder is either premeditated or
felony-murder. This Court in Lowenfield found that the Louisiana
capital scheme operated similarly to the Texas scheme that
provided for death eligibility to be determined at the guilt
phase of the trial:
It seems clear to us from this discussion that the
narrowing function required for a regime of capital
punishment may be provided in either of these two ways:
The legislature may itself narrow the definition of
capital offenses, as Texas and Louisiana have done, so
that the jury finding of guilt responds to this
concern, or the legislature may more broadly define
capital offenses and provide for narrowing by jury
findings of aggravating circumstances at the penalty
phase. See also Zant [v. Stephens, 462 U.S. 862, 876
n.13 (1983)] discussing Jurek and concluding: “[I]n
Texas, aggravating and mitigating circumstances were
not considered at the same stage of the criminal
prosecution.”
Lowenfield, 484 U.S. 245-47 (emphasis added).
The Florida Legislature had decided that it was during the
penalty phase that the factual determinations were to be made as
16

to the aggravating circumstances and their sufficiency, as well
carrying out the Eighth Amendment narrowing function in
conformity with Zant v. Stephens:
To avoid arbitrary and capricious punishment, this
aggravating circumstance “must genuinely narrow the
class of persons eligible for the death penalty and
must reasonably justify the imposition of a more severe
sentence on the defendant compared to others found
guilty of murder.” Zant v. Stephens, 462 U.S. 862
(1983)(footnote omitted). Since premeditation is
already an element of capital murder in Florida,
section 921.141 (5)(I) must have a different meaning;
otherwise, it would apply to every premeditated murder.
Porter v. State, 564 So. 2d 1060, 1064 (1990).
The majority in Hurst v. State concluded that the factual
determination of that “sufficient aggravating circumstances
existed” is the finding of those additional facts that are
necessary under the Eighth Amendment requirement that death
eligibility be narrowed beyond the traditional definition of
first degree murder. Zant v. Stephens, 462 U.S. 862, 878 (1983)
(“[S]tatutory aggravating circumstances play a constitutionally
necessary function at the stage of legislative definition: they
circumscribe the class of persons eligible for the death
penalty”). Clearly in Florida, the narrowing of the death
eligible occurs in the sentencing phase. That factual
determination--that “sufficient aggravating circumstances exist”-has not been made during the guilt phase of a capital trial.
Fla. Stat. § 921.141, requires at least two factual
determinations to be made before a death sentence may be imposed.
First, the existence of at least one aggravating circumstance
must be found as a matter of fact. Then, the statute requires “as
17

to the facts” a finding that “sufficient aggravating
circumstances exist” to justify imposition of death. Fla. Stat. §
921.141(3), (emphasis added). If these facts are not found, the
statute provides that “the court shall impose a sentence of life
imprisonment in accordance with [§]775.082.” Id. (emphasis
added). Fla. Stat. § 775.082 provides that a person convicted of
first-degree murder must be sentenced to life imprisonment
“unless the proceedings held to determine sentence according to
the procedure set forth in § 921.141 result in finding by the
court that such person shall be punished by death.” The Florida
Supreme Court has long held that §§ 775.082 and 921.141 do not
allow imposition of a death sentence upon a jury’s verdict of
guilt, but only upon the finding of sufficient aggravating
circumstances. Dixon v. State, 283 So. 2d 1, 7 (Fla.
1973).
The majority in Hurst v. State read the plain language of
Florida’s death penalty statute as mandating a factual
determination that there existed sufficient aggravating
circumstances to justify a death sentence. Indeed, the statute
described the sufficiency of the aggravating circumstances as a
“fact” and required the entry of factual findings regarding the
sufficiency of the aggravators.6

6

Justice Canady, joined by Justice Polston, dissented from
the majority’s conclusion that the sufficiency of the aggravators
was an element of capital murder. This reflected either a
different construction of the statute or a different
understanding of this Court’s ruling in Hurst v. Florida.
18

The Florida Supreme Court clearly struggled in Hurst v.
State as it tried determined what a matter of statutory
construction and what was a matter of Fifth and Sixth Amendment
jurisprudence under Ring v. Arizona and Hurst v. Florida. It also
struggled with whether its ruling was retroactive. If the Hurst
v. State was procedural, the retroactivity rules are different
than if Hurst v. State announced substantive law dating back to
when the statute was enacted. Fiore v. White, 531 U.S. 225
(2001).
The Florida Supreme Court applied Hurst v. State
retroactively in cases in which the death sentence was not final
on June 24, 2002. The date of the homicide was rendered
irrelevant, as was the date that the conviction of first degree
murder became final. Death sentences were vacated on the basis of
Hurst v. State and resentencings ordered in cases in which the
homicides occurred in 1981, while in cases in which the homicides
occurred many years later Hurst v. State was not applied. Cf Card
v. Jones, 219 So.3d 47 (Fla. 2017) (resentencing ordered in case
in which homicide committed in 1981); Zakrzewski v. Jones, 221
So. 3d 1159 (Fla. 2017) (Hurst v. State not applicable in case in
which homicides occurred in 1994). If Hurst v. State constituted
substantive law and identified the elements necessary for a
defendant to be convicted, not just of first degree murder, but
of capital first degree murder, it would seem that it should be
applied uniformly based upon the date that the homicide was
committed.
19

Moreover, the Florida Supreme Court continues to struggle.
In State v. Poole, it announced it was receding from Hurst v.
State. 297 So. 3d 487, 502-03 (Fla. 2020)(“our Court was wrong in
Hurst v. State when it held that the existence of an aggravator
and the sufficiency of an aggravator are two separate findings,
each of which the jury must find unanimously.”). The Florida
Supreme Court in Poole rejected the Hurst majority’s reading of §
921.141 and adopted the position taken by Justice Canady’s
dissent. Poole rejected the construction of § 921.141 that had
been adopted in Hurst v. State. However, the decision in Poole
cannot be given retroactive effect because to do so would violate
the Due Process Clause.
When the Florida Supreme Court in Hurst v. State construed §
921.141, the Savings Clause of the Florida Constitution (Article
X, Section 9) required the law on the date of the criminal
offense to govern as to the prosecution and sentencing of a
criminal defendant. Thus, the construction of § 921.141 in Hurst
v. State reflected the meaning of the statute on November 27,
1987, the date of the homicides at issue there. The Florida
Supreme Court’s decision on January 23, 2020, in Poole to recede
from statutory construction set forth in Hurst v. State cannot be
applied retroactively. This Court has held that:
We think it clear that the South Carolina Supreme
Court, in applying its new construction of the statute
to affirm these convictions, has deprived petitioners
of rights guaranteed to them by the Due Process Clause.
If South Carolina had applied to this case its new
statute prohibiting the act of remaining on the
premises of another after being asked to leave, the
constitutional proscription of ex post facto laws would
clearly invalidate the convictions. The Due Process
Clause compels the same result here, where the State
20

has sought to achieve precisely the same effect by
judicial construction of the statute.
Bouie v. City of Columbia, 378 U.S. 347, 362 (1964). In Bouie,
the Court also stated:
When a state court overrules a consistent line of
procedural decisions with the retroactive effect of
denying a litigant a hearing in a pending case, it
thereby deprives him of due process of law ‘in its
primary sense of an opportunity to be heard and to
defend (his) substantive right.’ Brinkerhoff-Faris
Trust & Sav. Co. v. Hill, 281 U.S. 673, 678, 50 S.Ct.
451, 453, 74 L.Ed. 1107.
Id. at 354.
In Brinkerhoff-Faris Trust & Sav. Co. v. Hill, 281 U.S. 673,
681-82 (1930), this Court held:
Undoubtedly, the state court had the power to construe
the statute dealing with the state tax commission; and
to re-examine and overrule the Laclede Case. Neither of
these matters raises a federal question; neither is
subject to our review. But, while it is for the state
courts to determine the adjective as well as the
substantive law of the state, they must, in so doing,
accord the parties due process of law. Whether acting
through its judiciary or through its Legislature, a
state may not deprive a person of all existing remedies
for the enforcement of a right, which the state has no
power to destroy, unless there is, or was, afforded to
him some real opportunity to protect it.
(Footnote omitted).
Due process prohibits the retroactive application of
judicial interpretations of criminal statutes that are
“unexpected and indefensible by reference to the law which had
been expressed prior to the conduct in issue.” Rogers v.
Tennessee, 532 U.S. 451, 461 (2001). Certainly, Poole was
unexpected. It is also indefensible in that the statutory
construction set forth in Hurst v. State was applied to Hurst’s
crime, which was committed May 2, 1998. As a result, his death
21

sentence was vacated and his jury returned a binding life
recommendation. The Hurst statutory construction was applied in
the case of William Melvin White when the circuit court vacated
his death sentence on the basis of Hurst v. State. See White v.
State, 817 So. 2d 799 (Fla. 2002); White v. State, 729 So. 2d 909
(Fla. 1999); White v. State, 415 So. 2d 719 (1982). White’s
homicide was committed in 1978. After White’s death sentence was
vacated, the State did not pursue another death sentence. As a
result, a life sentence was imposed. Moreover, this Court in 1991
indicated that under Florida law a death sentence could only be
imposed “where sufficient aggravating circumstances exist”.
Parker v. Dugger, 498 U.S. 308 (1991).
Poole is also indefensible because the Florida Legislature
has demonstrated its agreement with the statutory construction
set forth in Hurst v. State. The legislature did not dispute the
holding of Hurst v. State, and chose not to change the statute
after Poole issued. This means that the Florida Supreme Court in
Hurst v. State correctly read the statute in Hurst v. State and
captured the legislative intent.
However, in Mr. Reed’s case, the Florida Supreme Court
relied upon Poole retroactively overturning Hurst v. State
seemingly contrary to the reasoning of Bouie v. City of Columbia
and Rogers v. Tennessee.
Furthermore, the Florida Supreme Court’s citation to this
Court’s decision in McKinney v. Arizona in denying Mr. Reed’s
appeal further reflects the ongoing confusion. This Court granted
certiorari to McKinney “[b]ecause of the importance of the case
22

to capital sentencing in Arizona.” McKinney v. Arizona, 140 S.Ct.
702, 706 (2020). Furthermore, the specific questions presented to
and considered by this Court were:
1. Whether the Arizona Supreme Court was required to
apply current law when weighing mitigating and
aggravating evidence to determine whether a death
sentence is warranted.
2. Whether the correction of error under Eddings v.
Oklahoma, 455 U.S. 104 (1982), requires resentencing.
See McKinney v. Arizona, Case No. 18-1109, Initial Brief, August
21, 2019. In fact, this Court made clear in its opinion: “The
issue in this case is narrow. McKinney contends that after the
Ninth Circuit identified an Eddings error, the Arizona Supreme
Court could not itself reweigh the aggravating and mitigating
circumstances.” McKinney, 140 S.Ct. at 706.
It is important to note that the Arizona statute is markedly
different than Florida’s statute. The Arizona statute at issue in
Ring v. Arizona and found to govern McKinney did not require a
finding that sufficient aggravating circumstances existed to
justify a death sentence. The Arizona statute merely required one
aggravating circumstance to be found.
CONCLUSION
Petitioner, Grover Reed, requests that certiorari review be
granted.

23

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true copy of the foregoing has been
furnished by United States mail, first class postage prepaid, to
Charmaine Millsaps, Senior Assistant Attorney General, Office of
the Attorney General, The Capitol, PL-01, Tallahassee, FL 32301,
on November 30, 2020.
/s/ Martin J. McClain
MARTIN J. MCCLAIN
Fla. Bar No. 0754773
Law Office of Martin J. McClain
141 N.E. 30th Street
Wilton Manors, FL 33334
Telephone: (305) 984-8344
martymcclain@comcast.net
COUNSEL FOR PETITIONER

24

